NO; 20-5502

IN THE UNITED STATES SUPREME COURT OF THE UNITED STATES

KAREEEM K KIRK, PETITIONER, PRO-SE
V.
JANET R RICHARDSON

MARIA O OSIMEN ET.AL,

COMES NOW PETITIONER KAREEM KIRK SR PRO-SE AND STATES THE FOLLOWING;
ON OCTEMBER 30th 2020 THE SUPREME COURT HELD A CONFERENCE ON
PETITIONERS WRIT OF CERTIORARI, WITH AN EQUALLY DIVIDED COURT, WITH
THE PASSING OF THE HONORABLE JUSTICE RUTH BADER GINSBURG SEPTEMBER
16, 2020; ON NOVEMBER 2, 2020 THE COURT ENTERED AN ORDER STATING THAT
PETITION FOR WRIT OF CERTIORARI WAS DENIED, SINCERELY SCOTT S HARRIS
[CLERK]

RECEIVED
JAN 22 2021

OFFICE OF THE CLERK
SUPREME COURT, U.S.

   
       
[GROUNDS]

{1] AT NO TIME DOES THE COURT AFFIRM THE JUDGEMENT OF THE LOWER
COURTS RULING WITH [9] MEMBERS OF THE SUPREME COURT PARTICIPATING IN
THE COURTS ORDER DENYING PETITIONERS WRIT OF CERTIORARI ON ITS
CONSTITUTIONAL MERITS,

[2] ORDINARILY IT IS EXCEEDINGLY RARE FOR THIS COURT TO GRANT REHEARING,
[BUT] WHEN THIS COURT HAS CONDUCTED PLENARY REVIEW AND NOT
AFFIRMED BY VOTE OF AN EQUALLY DIVIDED COURT BECAUSE OF A NEW
CONFERMATION TO THE COURT MEANING JUSTICE AMY CONEY BARRETT, WHO
DID NOT HEAR HER FIRST CASE UNTIL NOVEMBER 2, 2020 AND DID NOT TAKE
PART IN A PAIR OF UNSIGNED DECISIONS IN HER FIRST SUPREME COURT
ARGUMENT

[3] THE SUPREME COURT HAS NOT INFREQUENTLY GRANTED REHEARING BEFORE
A FULL BENCH, [SEE] CLAY, VS UNITED STATES -403 U.S.698 [1971] AND 91 S.CT.
2068. 29 L.Ed,2d 810 REHEARING PETITIONS HAVE BEEN GRANTED IN THE PAST
WHERE THE PRIOR DECISION WAS BY AN EQUALLY DIVIDED COURT AND IT
APPEARED LIKELY THAT UPON REARGUMENT A MAJORITY ONE WAY OR OTHER
MIGHT BE MUSTERED, [SEE] STEPHEN M, SHAPIRO et. al, SUPREME COURT
PRACTICE SUBSECTION 15.6 [a], AT 838 [10th ed, 2013] A SMALL NUMBER OF
CASES IN WHICH A FULL BENCH CAN REHEAR A CASE DECIDED BY AN EQUAL
DIVISION PROBABLY AMOUNTS TO THE LARGEST CLASS OF CASES IN WHICH A
PETITION FOR REHEARING AFTER A DECISION ON THE MERITS OF THIS CASE HAS
ANY CHANCE OF SUCCESS" Id; AT 839, FOR [EXAMPLE] THE GOVERMENT
PETITIONED FOR REHEARING IN UNITED STATES V, ONE 1938, MODEL FORD V-8
DELUXE COACH 305. U.S. 666 [1938] IN A CASE WHERE THERE WAS A VACANCY
DUE TO JUSTICE CARDOZOS DEATH BEFORE THE VACANCY WAS FILLED, AS
WITH JUSTICE RUTH BADER GINSBURG, JUSTICE AMY BARRETT — FILL THE
VACANCY IN OCTOBER 26th 2020 BUT DID NOT HEAR HER FIRST SUPREME
COURT CASE UNTIL NOVEMBER 2nd 2020., THE PETITIONER RECIEVED A ORDER
FROM THE COURT STATING; [THE COURT] ENTERED AN ORDER THAT
PETITIONERS WRIT OF CERTIORARI WAS DENIED NOVEMBER 2nd BY SCOTT S.
HARRIS [CLERK] BUT NOT FROM A SUPREME COURT JUSTICE WHEN THE VACANCY
HAD BEEN FILLED BY JUSTICE AMY C, BARRETT,

[4] THIS COURT SIMILARY GRANTED PETITIONS FOR REHEARING BEFORE A FULL
BENCH IN A SERIES OF CASES BEFORE A FULL BENCH [SEE] AFTER JUSTICE
JACKSONS DEATH IN [1945] POLLOCK, VS. FARMERS LOANS AND TRUST CO,
158.U.S.617 [1895] | SIMILAR FOR ABSENCE DUE TO ILLNESS, Id. AT 601-606
[REPRODUCING PETITION FOR REHEARING DISCUSSING EARLIER CASES] Id. AT
606-607-[GRANTING REHEARING]

[5] THERE IS A STRONG CONSTITUTIONAL NEED FOR A DEFINITIVE RESOLUTION
BY THIS COURT AT THIS STAGE, THIS COURT SHOULD BE THE FINAL ARBITER OF
THESE MATTERS THROUGH A DEFINITIVE RULING, TO BE SURE, BECAUSE THIS
CASE ARISES ON APPEAL\ REVIEW, OF AN PRELIMINARY INJUNCTION, THE SAME
CONSTITUTION ISSUES COULD ARISE AGAIN IN THIS CASE FOLLOWING ENTRY OF
A FINAL JUDGEMENT AND SUBSEQUENT APPEAL [NOTING INTERESTS OF THE
GOVERMENT AND INDIVIDUALS IN A PROMPT RESOLUTION,

[6] THIS COURT THEREFORE SHOULD GRANT REHEARING TO PRPVIDE FOR A
DECISION BY THE COURT NOW THAT IT HAS A FULL COMPLEMENT OF MEMBERS,
RATHER THAN ALLOW A NONPRECEDENTIAL AFFIRMANCE BY EQUALLY DIVIDED
COURT TO LEAVE IN PLACE A NATIONWIDE INJUNCTION OF SUCH SIGNIFICANCE,,
AND FOR THE FORGOING REASONS AND FOR THE CONSTITUTIONAL MERITS OF
THIS CASE THE PETITION FOR REHEARING SHOULD BE GRANTED,

[CERTIFICATE OF SERVICE]

THE GROUNDS ARE LIMITED TO INTERVENING CIRCUMSTANCES OF SUBSTANTIAL
OR CONTROLLING EFFECT OR TO OTHER SUBSTANTIAL GROUNDS NOT
PREVIOUSLY PRESENTED TO THIS HONORABLE COURT,

COMES NOW THE PETITIONER KAREEM KIRK SR, HEREBY CERTIFY AND DECLARE
THAT ON THIS DATE JANUARY 13, 2021, AS REQUIRED BY SUPREME COURT RULE
44 THAT THE PETITION IS PRESENTED IN GOOD FAITH AND NOT FOR DELAY;
